<html>
<title> - PROTECTING OUR EMPLOYEES: PANDEMIC INFLUENZA PREPAREDNESS AND THE FEDERAL WORKFORCE</title>
<body><pre>[Senate Hearing 111-300]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-300
 
                   PROTECTING OUR EMPLOYEES: PANDEMIC
                       INFLUENZA PREPAREDNESS AND
                         THE FEDERAL WORKFORCE

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 16, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
51-787                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                     Lisa M. Powell, Staff Director
                       Bryan G. Polisuk, Counsel
            Thomas J.R. Richards, Professional Staff Member
             Jennifer A. Hemingway, Minority Staff Director
          Thomas A. Bishop, Minority Professional Staff Member
                   Benjamin B. Rhodeside, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Voinovich............................................     3

                               WITNESSES
                         Tuesday, June 16, 2009

Rear Admiral W. Craig Vanderwagen, M.D., Assistant Secretary for 
  Preparedness and Response, U.S. Department of Health and Human 
  Services.......................................................     4
Elaine C. Duke, Under Secretary for Management, U.S. Department 
  of Homeland Security...........................................     6
Nancy H. Kichak, Associate Director, Strategic Human Resources 
  Policy Division, U.S. Office of Personnel Management...........     7
Bernice Steinhardt, Director, Strategic Issues, U.S. Government 
  Accountability Office..........................................     9
T.J. Bonner, President, National Border Patrol Council, American 
  Federation of Government Employees, AFL-CIO....................    23
Maureen Gilman, Legislative Director, National Treasury Employees 
  Union..........................................................    25

                     Alphabetical List of Witnesses

Bonner, T.J.:
    Testimony....................................................    23
    Prepared statement...........................................    64
Duke, Elaine C.:
    Testimony....................................................     6
    Prepared statement...........................................    39
Gilman, Maureen:
    Testimony....................................................    25
    Prepared statement by Colleen M. Kelley with attachments.....    82
Kichak, Nancy H.:
    Testimony....................................................     7
    Prepared statement...........................................    44
Steinhardt, Bernice:
    Testimony....................................................     9
    Prepared statement...........................................    48
Vanderwagen, Rear Admiral W. Craig, M.D.:
    Testimony....................................................     4
    Prepared statement...........................................    31

                                APPENDIX

Background.......................................................    96

                     Additional Prepared Statements

Questions and Responses to post-hearing questions:
    Mr. Vanderwagen..............................................   101
    Ms. Duke.....................................................   108


                   PROTECTING OUR EMPLOYEES: PANDEMIC
                       INFLUENZA PREPAREDNESS AND
                         THE FEDERAL WORKFORCE

                              ----------                              


                         TUESDAY, JUNE 16, 2009

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka and Voinovich.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. The hearing of the Subcommittee on Oversight 
of Government Management, the Federal Workforce, and the 
District of Columbia will come to order.
    I want to say good morning, aloha, and welcome to our 
distinguished panelists and guests and those who have joined us 
for the hearing this morning. I would like to thank you all for 
joining us here today for this hearing on Federal agencies' 
preparedness in the event of a pandemic influenza outbreak.
    First, I want to express my disappointment that the 
Subcommittee did not receive testimony from the agencies until 
late yesterday, some of it arriving at nearly 7 p.m. last 
night. This problem underscores my concerns that agencies will 
not be prepared to respond rapidly and communicate effectively 
to an emerging pandemic.
    As you know, our Subcommittee rules ask that witnesses 
furnish testimony at least 2 days in advance, or Friday in the 
case of a Tuesday hearing, to allow Members and staff enough 
time to prepare for the hearing. We will continue as best we 
can under the circumstances, but in future hearings I may 
strike late witness testimony. We may need to send additional 
follow-up questions on any issues we are not able to address 
today because of the unfortunate delay.
    Pandemic influenza continues to be a grave threat facing 
the United States and the world. The United Nations' World 
Health Organization (WHO), which coordinates global pandemic 
preparedness and response efforts, has said that infectious 
diseases are spreading faster than at any time in history.
    At the end of April, illnesses due to the novel H1N1 
influenza virus spread across North America and, over a short 
period of time, around the globe. H1N1 has resulted in over 
28,000 infections and nearly 150 deaths to date. Last week, the 
WHO raised the pandemic alert level to phase six, a full-blown 
global pandemic. Fortunately, so far, the virus has been 
relatively mild, but influenza viruses mutate rapidly, and H1N1 
poses a significant threat.
    The WHO has estimated that a serious pandemic influenza 
outbreak could cause more than 7 million deaths worldwide. In 
the last century, three pandemics killed approximately 43 
million people worldwide, including more than 500,000 
Americans. Public health officials have said for years that we 
need to prepare for the inevitable flu pandemic. We must do all 
we can to protect our communities from this threat.
    The Centers for Disease Control and Prevention (CDC) 
estimates that up to 40 percent of employees may be absent from 
work during a severe pandemic. In addition to those who are 
ill, employees may stay home to care for sick family members or 
due to fear of infection. An influenza pandemic threatens the 
operation of Federal agencies because essential workers could 
be absent for weeks, or even months, at a time.
    Detailed planning is necessary throughout the Federal 
Government to ensure continuity of operations while protecting 
employees. The activities of agencies critical to Americans' 
safety, health, and well-being cannot be allowed to stop during 
a pandemic; neither can we endanger the dedicated men and women 
who carry out those duties.
    The Government Accountability Office (GAO) has issued a 
number of reports addressing pandemic influenza preparedness. 
After a series of hearings on this topic this Subcommittee held 
in the fall of 2007, Senator Voinovich and I requested that GAO 
review pandemic preparedness plans for the Federal workforce, 
focusing on critical staff that require daily onsite activity. 
GAO's report, released today, concludes that while many Federal 
agencies are making progress to protect their workers and to 
identify essential functions that can be continued during a 
pandemic, the progress is uneven. Some agencies are only in the 
early stages of developing their pandemic plans. GAO also found 
that there is no real mechanism in place to monitor agencies' 
pandemic workforce plans. We will address GAO's recommendation 
to improve monitoring and reporting on agencies' progress with 
their plans at today's hearing.
    Strong planning is just the first step. Agencies must 
ensure that their plans are up to date and operationally sound. 
Moreover, they must engage employees and communicate those 
plans clearly.
    Senator Voinovich and I have introduced two bills to 
enhance agencies' ability to translate pandemic planning into 
smooth operations. The Telework Enhancement Act of 2009, S. 
707, would require agencies to develop robust telework policies 
and address telework in continuity-of-operations planning 
(COOP). Strong and tested telework programs will be essential 
to continuing operations when social distancing is in order and 
many employees are absent.
    Additionally, the Federal Executive Board (FEB) 
Authorization Act, S. 806, would formalize the role of FEBs in 
an emergency event and authorize needed funding to support 
their mission. FEBs will play a critical role in coordinating 
the activities of lead Federal, State, and local government 
officials outside the Washington, DC area during any pandemic 
flu response.
    Additionally, as I stated, agencies must make sure 
employees have the information they need about pandemic plans. 
In particular, there must be clear guidance to Federal 
employees regarding employees' rights to protect themselves at 
the workplace. Employees must receive this information before a 
pandemic occurs. It may be too late to be effective if 
employees are given the information they need after an outbreak 
occurs.
    I am concerned that Federal agencies have not done enough 
to protect the Federal workforce from the current outbreak of 
H1N1. Employees who interact with hundreds or thousands of 
travelers daily in the Customs and Border Protection (CBP) and 
Transportation Security Administration (TSA) received 
conflicting guidance. This is unacceptable. As reports from the 
field indicate, employees who asked to wear protective masks 
were told they could not. However, this policy is not part of 
the official guidance distributed by the Department of Homeland 
Security (DHS), the Office of Personnel Management (OPM), or 
the Occupational Safety and Health Administration (OSHA). The 
men and women on the front lines must be able to trust that 
their agencies will develop and distribute clear policies in a 
timely manner during an emergent event. Proper coordination 
between DHS, OPM, and the Department of Health and Human 
Services (HHS) is needed to accomplish this.
    Public health officials warn that we may see a resurgence 
of a stronger, more threatening version of the novel H1N1 virus 
later this fall. Agencies need to make sure now that the 
workforce is properly informed of policies and guidance so we 
are ready if that happens.
    I know that you all have put a lot of thought and energy 
into developing plans to protect the workforce from the current 
pandemic and future threats while ensuring continuity of 
government operations. In particular, I know DHS, OPM, and HHS 
are coordinating to develop clear and consistent workforce 
guidance. I look forward to hearing about this important work 
today.
    Senator Voinovich, your opening statement.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Senator Akaka. I, first of 
all, have little to add to your opening statement. I think it 
was an excellent statement, and anything I would say would 
probably just be redundant. The only thing that I would like to 
emphasize before we hear from the witnesses is that so many of 
these things come along, being a problem, and then it kind of 
eases out and it is not a problem. But I think it is 
significant--at least it impressed me--that the World Health 
Organization dubbed swine flu as a ``pandemic,'' the first in 
41 years. So obviously they think this is something pretty 
serious and something that we ought to take to heart, and I am 
anxious to hear your testimony today about the GAO report and 
how you think we can remedy the things that were outlined in 
that report. Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Voinovich.
    I would like to at this time introduce our panel: Elaine 
Duke, Under Secretary for Management, U.S. Department of 
Homeland Security; Rear Admiral W. Craig Vanderwagen, M.D., 
Assistant Secretary for Preparedness and Response, U.S. 
Department of Health and Human Services; Nancy Kichak, 
Associate Director of Strategic Human Resources Policy, U.S. 
Office of Personnel Management; Bernice Steinhardt, Director of 
Strategic Issues, U.S. Government Accountability Office.
    It is the custom of this Subcommittee to swear in all 
witnesses; therefore, I ask all of you to stand and raise your 
right hand. Do you solemnly swear that the testimony you are 
about to give this Subcommittee is the truth, the whole truth, 
and nothing but the truth, so help you, God?
    Ms. Duke. I do.
    Admiral Vanderwagen. I do.
    Ms. Kichak. I do.
    Ms. Steinhardt. I do.
    Senator Akaka. Thank you. Let the record note that our 
witnesses responded in the affirmative.
    Before we begin, I want to remind you that although your 
oral statement is limited to 5 minutes, your written statements 
will be included in the record.
    Rear Admiral Vanderwagen, would you please proceed with 
your statement?

   TESTIMONY OF REAR ADMIRAL W. CRAIG VANDERWAGEN, M.D.,\1\ 
    ASSISTANT SECRETARY FOR PREPAREDNESS AND RESPONSE, U.S. 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Admiral Vanderwagen. Mahalo nui loa, Kupuna.
---------------------------------------------------------------------------
    \1\ The prepared statement of Rear Admiral Vanderwagen appears in 
the Appendix on page 31.
---------------------------------------------------------------------------
    Senator Akaka. Mahalo.
    Admiral Vanderwagen. Good morning, Mr. Chairman and Mr. 
Ranking Member. I am Craig Vanderwagen, and I am here today 
representing the Department of Health and Human Services. My 
role has a significant number of responsibilities related to 
disaster planning, including being the Continuity Officer for 
the Department, the individual responsible for development of 
such things as vaccines and other countermeasures, and 
leadership for the Emergency Support Function-8 (ESF), that is, 
the response arm of the Federal Government for health, under 
the direction of Homeland Security, and other special events. 
But I am here today to speak more about the science of the 
issues of workforce protection and how we communicate with our 
colleagues in the Federal Government about how the science can 
be understood and translated into policies and procedures for 
action within the elements of the U.S. Government.
    As the U.S. governmental lead for public health and medical 
response, Health and Human Services is committed to providing 
current, science-based guidance based on the best available 
evidence, including checklists, to assist businesses, 
industries, and other employers--like the U.S. Government--in 
planning for a pandemic as well as for other comparable 
catastrophes. During public health emergencies like the current 
pandemic H1N1 influenza virus outbreak, protecting workers, 
including Federal workers, must be a top priority. Health and 
Human Services, in coordination with the Department of Labor's 
Occupational Safety and Health Administration, provides up-to-
date guidance for workplace protection on the comprehensive 
Federal Web site www.flu.gov as well as at www.cdc.gov.
    As part of our response to pandemic H1N1 influenza, HHS has 
contributed several efforts directed to Federal workers and 
recognized there were plans for an avian influenza, but this 
was a novel virus, and we had to change some of our guidance to 
adapt to that reality, because this was not an avian influenza 
beginning in South Asia and gradually getting here. In fact, it 
was here before people could blink. And so there were some 
changes that had to be taken into account as we provided 
guidance.
    So the publication ``General Business and Workplace 
Guidance for the Prevention of Novel Influenza A (H1N1) Flu in 
Workers'' details one of our best measures for reducing the 
spread of an outbreak of a novel influenza virus; that is, sick 
people are encouraged to stay home while they are contagious. 
This is probably the best and most rational step that one could 
take, and employers need to account for that as they think 
about how they will continue through an event like this. HHS 
employees and contractors who are symptomatic or have had 
recent contact with someone who has or is likely to have H1N1 
are to notify their supervisors, stay home, and seek medical 
guidance.
    In alignment with the Department of Labor's OSHA Pandemic 
Influenza Risk Pyramid, which arrays the risk of exposure to a 
potential pandemic virus by type of contact with ill persons, 
HHS has produced guidance for individuals working in a health 
care setting with patients who have, or may have, pandemic H1N1 
influenza and for workers in the general public in other 
community settings.
    Health and Human Services has provided guidance to the U.S. 
Navy on how to clean its ships to avoid spread of pandemic 
H1N1. We have worked with the U.S. Northern Command (NORTHCOM) 
on how to protect its employees during the outbreak. The U.S. 
General Services Administration (GSA)--we have worked with them 
on the odds of transmission of the pandemic H1N1 influenza 
virus over significant distances by looking at heating, 
ventilation, and air conditioning systems, and determined that 
it was extremely remote that these would be transmission 
sources of disease.
    In collaboration with DHS, Health and Human Services has 
hosted a large number of outreach efforts to employers, 
including large teleconferences, to provide key information 
that employers can use to protect their workers and ensure 
business continuity during a pandemic. Over 3,000 business 
representatives have participated in a series of five 
teleconferences held since the end of April. Simple measures, 
such as covering coughs and sneezes and frequent hand washing, 
remain effective means of reducing the spread of influenza, and 
these measures also have implications for safe workplaces and a 
healthy workforce beyond influenza.
    A vital mission of our Department is to serve as the U.S. 
Government's principal agency for protecting the health of all 
Americans. We are dedicated to this mission and to the 
principle that the best policies for health and safety are 
based on the best available science.
    At this time I conclude my remarks, and I will be happy to 
answer questions or comments that you may have, sir.
    Senator Akaka. Thank you very much, Admiral.
    And now we will receive the testimony from Elaine Duke.

TESTIMONY OF ELAINE C. DUKE,\1\ UNDER SECRETARY FOR MANAGEMENT, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Duke. Chairman Akaka, Ranking Member Voinovich, thank 
you for hosting this hearing and the opportunity to come before 
you to discuss the Department of Homeland Security's response 
and preparations for employees with the 2009 H1N1 flu outbreak 
and pandemic events in general.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Duke appears in the Appendix on 
page 39.
---------------------------------------------------------------------------
    I recognize that, as a Department, we must work together to 
take the proper safety precautions to reduce transmission of 
any disease while still performing our critical homeland 
security missions. This may mean that some employees need to 
wear personal protective equipment. Some employees may need to 
telecommute. Others may need to stay home if they have an 
illness in their family or if their child's school is closed. I 
am committed to working with the component heads from across 
the Department and across the Federal Government to provide our 
employees with the safest possible working environment. Our 
workforce safety and security is always one of my top 
priorities.
    It is important to know that, when making all of our 
decisions, we base them on the science and the epidemiology as 
recommended by the Centers for Disease Control and Prevention, 
the workplace guidance from the Departments of Health and Human 
Services and Labor, the public health community, and the World 
Health Organization.
    In fiscal year 2006, the Department was able to start 
building the basis for its pandemic program. We purchased 
personal protective equipment for use by mission-essential 
employees, but primarily designated for the operating 
components that have specific job functions that place them at 
greater risk during a pandemic event. Currently, personal 
protection equipment is pre-positioned at 53 DHS locations and 
field offices nationwide. The Federal Emergency Management 
Agency (FEMA) is responsible for coordinating the logistics of 
this pre-positioned equipment.
    The Department has also stockpiled two types of antivirals, 
trademarked as Tamiflu and Relenza, dedicated for DHS workforce 
protection. Overall, DHS has approximately 540,000 courses of 
antivirals targeted for its mission-essential workforce.
    In fiscal year 2006, we received supplemental funding that 
allowed us to prepare a number of pandemic plans for the 
Federal Government. The Department's Office of Health Affairs 
(OHA) coordinated and led the development of the DHS Pandemic 
Influenza Contingency Plan, and Screening Protocols for 
Pandemic Influenza in air, land, and maritime environments, and 
the Draft Federal Interagency Pandemic Influenza Strategic 
Plan. Office of Health Affairs in DHS manages and tracks the 
action items assigned to DHS under the National Strategy for 
Pandemic Influenza Implementation Plan.
    I recognize that effective communication in any disaster is 
critical, and a severe pandemic where there could be nationwide 
consequences is no exception. The Office of Health Affairs 
worked with the DHS Office of Public Affairs (OPA) and Federal 
interagency representatives to create the ESF-15 Pandemic 
Influenza Communications Go Book, which provides a framework 
for public communications by Federal agencies as well as State 
and local communities in the event of a pandemic outbreak.
    Training is also critical, and we have developed under the 
leadership of Health Affairs a pandemic awareness and 
prevention training DVD available for all DHS employees. 
Additionally, CBP and Immigration and Customs Enforcement (ICE) 
have both created training and made available training to its 
employees beginning in August 2006 and continuing and improving 
to this day.
    In October 2008, DHS conducted an Intradepartmental 
Pandemic Influenza Tabletop Exercise, which included 
participants from all DHS components as well as inter-DHS--and 
inter-Federal employees. The purpose of the workshop was to 
facilitate in-depth discussions and actually exercise the 
Federal Government's response to a pandemic exercise. All DHS 
components were represented as well as 13 other Federal 
departments and agencies, with total attendance of nearly 100 
participants.
    The Secretary of Homeland Security, Janet Napolitano, and I 
have made communication with the DHS workforce a top priority, 
especially in the 2009 H1N1 outbreak. We have provided employee 
communications and guidances. Initially, I provided guidance to 
our employees on April 30 and after, CDC updated its guidance 
on May 27, 2009, updated the Department of Homeland Security 
guidance on May 29, issuing it to all the components. 
Similarly, the components in fact that have employees in these 
mission-critical positions followed with guidance of their own 
to ensure that employees were provided the appropriate personal 
protection equipment related to H1N1.
    I wanted to, in response to your opening comments, Chairman 
Akaka, apologize from the Department and me, personally, for 
the late submission of my testimony, and I look forward to your 
questions both in this hearing today and any follow-up 
questions that the Subcommittee may in writing. Thank you.
    Senator Akaka. Thank you very much for your statement. And 
now we will receive the testimony of Nancy Kichak.

TESTIMONY OF NANCY H. KICHAK,\1\ ASSOCIATE DIRECTOR, STRATEGIC 
   HUMAN RESOURCES POLICY DIVISION, U.S. OFFICE OF PERSONNEL 
                           MANAGEMENT

    Ms. Kichak. Chairman Akaka and Ranking Member Voinovich, 
thank you for including the Office of Personnel Management in 
your discussion of this important topic. I am pleased to be 
here to discuss OPM's efforts to ensure the Federal Government 
is prepared to meet the human resources management challenges 
posed by a pandemic health crisis, such as the H1N1 flu 
outbreak.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Kichak appears in the Appendix on 
page 44.
---------------------------------------------------------------------------
    One of Director John Berry's first actions when he took 
over the helm at OPM was to meet with members of the Chief 
Human Capital Officers Council to assess whether their human 
resources issues and needs in the event of an influenza 
emergency were being addressed. This review led to the Director 
convening a ``H1N1 Human Resources Readiness Forum'' to help 
Federal agency human resources leadership identify and answer 
issues arising from a potential influenza outbreak. The forum 
was held on May 8 and attracted 142 officials from 37 Federal 
agencies and Federal employee union representatives. We, at 
OPM, do not have the expertise to make judgments about the 
efficacy and appropriateness of providing certain medical and 
protective devices to front-line workers. Therefore, the forum 
made available representatives of CDC, OSHA, and the Federal 
Occupational Health Services (FOH) in the Department of Health 
and Human Services to answer questions about potential health 
impacts and protective measures during the flu outbreak.
    The forum was a supplement to the memorandum on human 
resources flexibilities available to assist Federal employees 
during emergencies, which Director Berry had distributed 3 days 
earlier. The memorandum reiterated and expanded upon previous 
guidance on a wide variety of human resources management tools 
agencies have for continuing operations during the pandemic 
influenza emergency. Director Berry also announced a major 
initiative to reinvigorate agency telework programs. This 
initiative is driven not only by his belief in the value of 
work-life programs generally, but more specifically in the 
importance of telework as a tool for emergency planning.
    The H1N1 flu outbreak has demonstrated the importance of 
being able to quickly expand the use of telework to cope with 
pandemic health crises and other emergencies. Telework can help 
mitigate the spread of influenza by promoting social 
distancing. It can also assist employees in balancing their 
ongoing work responsibilities with the need to care for their 
families.
    OPM has been working on governmentwide preparation for an 
influenza pandemic for several years, developing comprehensive 
human resource guidance and conducting briefings for Federal 
human resources specialists as well as town hall meetings for 
employees at numerous Federal agencies.
    Since the onset of the current flu outbreak, we have 
updated this pandemic influenza guidance. We also continue to 
collect questions with the goal of supplementing guidance 
already on our Web site.
    Agency employee assistance programs (EAPs) will also be 
ready to provide assistance to front-line employees and other 
Federal workers. The stress and anxiety of the flu outbreak and 
the dislocations it may cause could have a lasting impact on 
how our employees function. All our agencies have EAPs. We need 
to be sure they are part of our pandemic planning and response 
efforts and that they have the resources necessary to help our 
employees remain productive during and after a crisis.
    Last fall, major agencies were asked to recertify their 
readiness using the Homeland Security Council's ``meta-
checklist.'' The Office of Personnel Management worked with 
agencies to develop the human resources part of this checklist. 
We are also part of the Homeland Security Council's H1N1 Flu 
Working Group and Pandemic Influenza Sub-Interagency Policy 
Committee. The current outbreak reminds us we must always be 
prepared to take care of our employees while continuing to meet 
the needs of the Nation. Federal agencies need to ensure their 
plans are up to date, that they have telework agreements with 
as many telework-eligible employees as possible, and should 
test employees' ability to access agency networks from home, as 
well as their procedures for communicating with employees who 
are teleworking.
    We stand ready to provide guidance and support. Again, 
thank you for inviting me here today, and I would be happy to 
answer any questions.
    Senator Akaka. Thank you very much for your testimony, Ms. 
Kichak. And now we will hear from Bernice Steinhardt.

TESTIMONY OF BERNICE STEINHARDT,\1\ DIRECTOR, STRATEGIC ISSUES, 
             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Steinhardt. Thank you very much, Mr. Chairman and 
Senator Voinovich. We always appreciate the opportunity to 
appear before you, and today we would like to talk about the 
report we did for you on Federal agency efforts to protect 
their workers in the event of a pandemic influenza.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Steinhardt appears in the 
Appendix on page 48.
---------------------------------------------------------------------------
    When you asked us to look into this, we were not in the 
middle of a H1N1 outbreak, but looking ahead, you were 
concerned about the extent to which agencies had taken steps to 
protect their employees, particularly those who have to be able 
to perform their jobs in order for their agencies to carry out 
their essential functions.
    What we have learned reveals something of a mixed picture. 
All of the agencies have been planning for how they will 
provide for the safety and health of their employees in the 
event of a pandemic, but some of them are still in early 
stages, as you pointed out earlier, Senator Akaka, and several 
agencies are still in the process of identifying essential 
functions that cannot be continued through telework.
    As for telework, all of the agencies reported plans to rely 
on it as a social distancing strategy. Nevertheless, only one 
agency, the National Science Foundation (NSF), reported that it 
had extensively tested its IT infrastructure to make sure that 
it is capable of handling telework arrangements; and five 
agencies told us that they had done very little testing of 
their Information Technology (IT) systems.
    Agencies also need to inform their employees about their 
rights and responsibilities in a pandemic, but not all of them 
have. First, it is not clear that all agencies have notified 
employees performing essential functions that they will be 
expected to continue their work in the event of a pandemic. 
And, second, not all agencies have told their employees about 
how leave policies, work arrangements, and other kinds of human 
capital policies would change in a pandemic.
    Beyond this broad survey, we took an in-depth look at three 
critical occupations or functions that cannot be performed from 
remote locations. We looked at Federal correctional workers, 
workers who process Social Security checks and other Federal 
payments, and air traffic controllers employed by Federal 
Aviation Administration (FAA). Protecting these workers in a 
pandemic flu presents a number of challenges.
    Air traffic controllers, for example, work in very close 
quarters, but they cannot use face mask equipment because it 
would interfere with their ability to communicate with 
aircraft. They also have to follow very strict rules on using 
medications because they might impair their performance. But 
air traffic control centers still have not developed pandemic 
plans because they were waiting for FAA and the Air Traffic 
Organization to come up with their plans and policies first.
    So you can see that planning, whether it is across the 
board as well as in our case study agencies, is still rolling 
out and that some agencies are not close to having operational 
pandemic plans, particularly at the facility level. Yet there 
is no monitoring mechanism to assess the degree of progress in 
agencies' planning.
    Under the National Pandemic Implementation Plan, the 
Department of Homeland Security was charged with monitoring and 
reporting to the Executive Office of the President on the 
readiness of departments and agencies to continue their 
operations while protecting their workers during a pandemic. 
But some time later, the Homeland Security Council apparently 
told DHS that they did not have to prepare this report. 
Instead, the Homeland Security Council asked agencies simply to 
certify that they were addressing elements of a checklist that 
covered areas that included employee health and safety. Just to 
be clear, they did not have to report that they had finished 
their planning or that they were making progress, but only that 
they were addressing elements of this checklist.
    So well intentioned though this process may be, it provides 
little accountability for agencies to make sure that they are 
adequately protecting their employees. For this reason, we 
recommended in our report that the Homeland Security Council 
ask the Department of Homeland Security to assume the role that 
was originally envisioned for it and to report on agency 
progress as well as any key challenges and gaps in their plans. 
We also suggested that Congress might want to require the 
Department of Homeland Security to report to it as well as to 
the White House on agency preparedness.
    In closing, let me say that when you first asked us to 
undertake this review, a pandemic flu was still a speculative 
event. Now it is here, and it could become even more lethal in 
the future, as you pointed out. With that in mind, Federal 
agencies have to be, I would even argue are obligated to be, 
better prepared to protect their workers, those who serve the 
public, than they are today.
    Thank you very much, Mr. Chairman.
    Senator Akaka. Thank you very much, Ms. Steinhardt.
    Ms. Duke, as you know, the Federal employee unions are very 
concerned that DHS guidance on the use of personal protective 
equipment is not sufficient. In particular, their concern is 
that the updated policies do not cover protocols for employees 
processing people who do not appear sick.
    What is the policy on employees' voluntary use of personal 
protective equipment in that kind of situation?
    Ms. Duke. I am aware and have been working with the unions 
on clarifying our policy. The most recent policy dated May 29 
clarifies that DHS does permit its employees whose work 
requires them to come into close contact, which is defined in 
the CDC guidance as less than 6 feet, with persons who may have 
flu or are exhibiting flu-like symptoms to wear N95 respirators 
and that DHS will provide these. So that is, I think, a clear 
policy.
    Wearing respirators is not a health-neutral situation, and 
it is important for DHS to provide an environment that is most 
advantageous to its employees. So I feel very strongly that 
providing a policy which says we permit our employees to wear 
masks when their work requires them to be in contact with 
persons who have or may have flu is the appropriate solution 
for our employees.
    Additionally, each of the components that has employees in 
the situation--primarily, ICE, CBP, and TSA--has developed 
protocols to ensure the employees who come in contact with 
persons in this category do have access to personal protective 
equipment, including the N95 respirators.
    Senator Akaka. Would you please explain the medical basis 
for the policy guidance DHS has issued on workforce protection?
    Ms. Duke. The medical guidance is with our Office of Health 
Affairs working with the Centers for Disease Control, and most 
recently, the Centers for Disease Control updated their policy, 
which is posed on their Web site, and it talks about categories 
of people. It recommends that there are certain protocols which 
primarily say try to maintain a distance of 6 feet; but where 
you have to come in close contact with populations who may or 
do have H1N1 less than 6 feet that persons may consider wearing 
a mask. And it is clearly a voluntary choice at this point. And 
so that is the basis, the medical guidance we use in looking at 
our employees. I think the category that CDC used was a non-
health care workers category, but that puts us in a public 
situation.
    Senator Akaka. I would like to also ask Admiral Vanderwagen 
to explain the medical basis for the policy guidance DHS has 
issued.
    Admiral Vanderwagen. Well, it is extremely difficult, sir, 
because the science here, the medical science, does not give us 
a lot of clean answers. There is no particular scientific 
evidence that says that a N95, let alone a surgical mask, is 
effective in preventing very small contaminants from being 
expressed.
    Now, we are funding additional research with OSHA, through 
the National Institutes of Occupational Safety and Health 
(NIOSH), to see if we can find a much better science answer. 
But the fact of the matter is right now the science does not 
give us a real strong conclusion that masks either help or do 
not help.
    And so I think that it is as much about how do we preserve 
the resiliency of the employee in the face of these things, and 
OSHA has provided a guidance that identifies risk populations, 
and I think DHS has tried to identify their workers that are in 
a risk setting and employ this as another tool. Remember that 
engineering, administrative, and workplace worksite practices 
probably are much stronger in protecting an employee than 
personal protective equipment. And personal protective 
equipment is really your last choice in that process. But 
sometimes you do not have a choice. You only have Personal 
Protective Equipment (PPE) available. And, unfortunately, the 
science does not give us a definitive answer that says use it 
or do not.
    So it is a tough nut, but I think we have opted to try and 
support the notion that where it improves resiliency and the 
ability of the employee to comfortably do their job, then it is 
probably a rational process.
    Senator Akaka. The next question is for all of the members 
on the panel. As we know, DHS is the lead Federal agency in 
responding to an influenza outbreak, while OPM plays a critical 
role in any workforce policies, and HHS plays a critical role 
with respect to medical guidance. Federal employees need clear 
and consistent guidance to understand how to protect themselves 
and what their responsibilities are during a pandemic.
    Which agency is responsible for providing that uniform 
guidance to Federal employees? And what are your 
recommendations for clarifying agencies' respective roles?
    Admiral Vanderwagen. I think that a single agency is 
probably not the final solution. We have to operate in a 
collaborative mode. OSHA provides the kind of guidance and 
general principles around occupational safety that are 
supported by the science that we fund over in Health and Human 
Services, at NIOSH and other places within the Department. So 
that most of us look to OSHA for the standards around who is 
high risk, and who is not, and what are the workplace safety 
features that we would want to employ.
    So I suppose that in one sense we, HHS, and OSHA have to 
own this in that we provide the science, they provide the 
occupational safety guidelines for people to perform under, 
whether they are Federal or they are private business.
    Ms. Duke. I believe when it comes to managing the 
workforce, we have the responsibility in DHS for our workers. 
We also have the responsibility for equity within the Federal 
Government, which I think the Office of Personnel Management 
leads. So in the case of the H1N1, there are certain personnel 
practices that I think we have to be concerned with, not only 
with the uniqueness of certain work environments, but also a 
fairness of employees across the Federal Government.
    So, for instance, Director Berry issued guidance about how 
to handle leave in situations where schools are closed but 
employees are not sick. I think it is important in that case 
that OPM take the lead and have some consistency so employees 
are not treated differently for the same situation. This is 
similar to the standard situation of OPM issuing guidance on 
bad weather days, snow days, and whether the government is 
closed or not. And the purpose of that is equity, I think, and 
consistency.
    So I think it is a balance, and some things should be 
standardized and some things are very unique to the work 
situation. And so OPM, I think, has the challenge of being 
consistent with the Federal Government but leaving the agencies 
some flexibilities for uniquenesses.
    Senator Akaka. Ms. Duke, what role do you believe the 
Homeland Security Council should play in providing guidance to 
Federal employees?
    Ms. Duke. I believe that the Homeland Security Council in 
serving the Administration, the White House, will have some 
role in coordinating and ensuring consistency among the various 
pieces. So under Homeland Security Presidential Directive 5, 
the Secretary of Homeland Security has the lead coordination 
role, but each activity or different functions within any 
response, including pandemic, different agencies have the lead. 
And I think the Homeland Security Council (HSC) has a role in 
ensuring that, where there is an agency having a piece of a 
response, the pieces fit together and are coordinated. So I 
think this is the same with the pandemic where HSC has to 
ensure with the Secretary of Homeland Security that OPM's 
response to the Federal workforce, HHS's response actually 
coordinate and work together, and that is what I think the role 
of the HSC is.
    Senator Akaka. Ms. Steinhardt, do you have any comment?
    Ms. Steinhardt. Yes, thank you very much, Mr. Chairman. I 
am very interested in hearing the responses of the other 
panelists on this topic because it is one that we ourselves 
were looking for an answer to during the course of our work.
    As we spoke to different agencies, while looking for a home 
for accountability for this whole process, each agency claimed 
responsibility only for one piece. OSHA said that it was 
responsible just for looking at worker protection standards and 
guidance. DHS, the Office of Health Affairs, said that its 
purview was limited as well. And the same with HHS, their role 
is to issue guidance, and OPM the same.
    I think this is the crux of planning. Every agency, and 
even across government, can have good plans, but if it is not 
clear where the leadership is going to come from and who is 
responsible for what, if it is not clear what the relative 
roles and responsibilities are, then I think the plans are not 
going to be as useful as they need to be.
    Senator Akaka. Admiral Vanderwagen.
    Admiral Vanderwagen. Yes, thanks. And I have a tendency to 
agree with Ms. Steinhardt, but I would note that there are 
strategic operational and tactical issues at play here. And I 
think the HSC tries to operate at the strategic level, that is, 
what are the strategic goals and objectives that we are going 
to have in dealing with this process?
    Then I think the departments are assigned operational 
responsibilities, and in general, DHS has the lead 
responsibility for operationalizing the strategy in this arena, 
and then the rest of us have our tactical missions.
    And so I think there is a coherent understanding or process 
at play that most of us operate from, and, frankly, with the 
H1N1, we just ran down the playbook. It was less than perfect, 
and we did not start on page 1, which assumed that it was going 
to come from Asia. But, in essence, we ran down the playbook 
starting at page 35 in what were we going to do. But that was 
sort of an operational and tactical set of activities. HSC had 
to deal with the strategic elements, including whether we are 
operating in any kind of coherent fashion. That goes to 
monitoring as well, though.
    Senator Akaka. Thank you. Let me call on Senator Voinovich 
for his questions.
    Senator Voinovich. I think that Senator Akaka, in his last 
question, has raised a real issue here. I cannot help but think 
of our mayor, when I was still governor, and I heard these 
excellent presentations this morning. I would conclude that 
each group is trying to do the very best that they can within 
the framework of what they think their responsibilities happen 
to be. But it seems to me that someone needs to sit down with a 
group of people and develop a plan, a strategic plan about who 
is responsible for the overall operation here, and then break 
down the individual responsibilities.
    For example, Ms. Duke, you have Homeland Security. You know 
which one of your people are absolutely strategic and need to 
be protected. You also reach out to some of the other agencies 
where you know that these folks need to be protected. They are 
in key roles. Others are not in such key roles. They could do 
the telework--in other words, breaking down the responsibility, 
who is responsible for what. When you started, Admiral, talking 
about your role, I thought, well HHS has got it taken care of.
    So it seems to me that is what is missing, and I would be 
interested, Ms. Steinhardt, on what are your thoughts. I mean, 
is this something that the Office of Personnel Management 
should be involved with, developing a strategic plan?
    Senator Akaka, one of the things that we could do that I 
think would be very worthwhile would be to insist that we see 
an overall plan about who is responsible for what, and then 
some type of metric system to see that the job is getting done. 
After that it is basically up to these folks to do that.
    So I would like you to comment on how would you put this 
together.
    Ms. Steinhardt. Well, Senator Voinovich----
    Senator Voinovich. Or is it already put together and I just 
did not pick it up?
    Ms. Steinhardt. If I can respond to your question, I think, 
I would also be interested in hearing from my colleagues on the 
panel. But I think that there are plans in place, there are 
certainly--we have a national strategy and implementation plan, 
but there are still lots of gaps in the plan. And I would say 
one of the biggest gaps that we face in general is that we have 
not fully tested at an operational level all the important 
dimensions of the plans, whether it is the national plan or at 
an agency level as well.
    We know from past experience, from September 11, 2001, and 
Hurricane Katrina more recently, that plans need to be tested 
and that you cannot start discovering your holes in the middle 
of an emergency event. And we have not seen that kind of full-
scale testing of our plans. So that would be one recommendation 
that we have made in the past that, I think, is still 
outstanding.
    In this case, as far as individual agency plans, as we 
recommended in the report to you, there is no accountability 
for the status of those plans. So far, the agencies only had to 
certify that they were planning. But having an operational 
plan, a plan that can actually work, there is no accountability 
for that yet, which is why we think there needs to be some kind 
of monitoring and reporting on this within the Administration.
    Senator Voinovich. Ms. Kichak.
    Ms. Kichak. Well, I believe that there is a plan in place, 
and I concur that testing is always critical. And at OPM we 
have tested our plan several times, and it is always an eye 
opener. Things never work 100 percent the way you want them to.
    Senator Voinovich. Pardon me, but do you know what part of 
what you are doing is in terms of the big picture?
    Ms. Kichak. Yes, I think we do. We are responsible for 
giving clear, consistent guidance for human resources issues. 
We do rely on the other agencies--HHS and the Department of 
Labor (DOL), through OSHA--to give us the guidance from a 
medical point of view for when there may be a pandemic and what 
medical procedures or protective equipment is necessary. That 
is not our area of expertise. Our expertise is to deal with 
issues such as how do you ensure employees are able to go home, 
how they are treated when they go home, and things like that. 
But we rely on other agencies for the science. And that is 
totally consistent with what has already been said here.
    So I think the three of us have all given a consistent 
message as to what our roles are.
    Senator Voinovich. The question I have, and forgive me for 
interrupting you, but let us just take teleworking. You talked 
about teleworking. It seems to me that it would be the agency's 
responsibility to determine which functions could be done 
through teleworking and which functions could not be done 
through teleworking.
    Ms. Kichak. Right.
    Senator Voinovich. And they would have to decide that. You 
could give them guidance, but aren't they the ones that would 
have to----
    Ms. Kichak. They have to decide that, yes.
    Senator Voinovich. And then you would probably aid them in 
terms of how do you go about doing the teleworking program.
    Ms. Kichak. Right.
    Senator Voinovich. I mean, for example, right now do you 
know how many agencies in the Federal Government are doing 
teleworking and what categories are now being considered for 
teleworking?
    Ms. Kichak. I would like to point out that there are two 
types of folks teleworking. There are the folks that are doing 
the COOP, which is the continuity of operations. That is the 
urgent kind of telework that keeps the core mission of the 
Federal Government going. That kind of teleworking may not be 
done by people who normally telework, and we know from our 
telework report that roughly 60 percent of the agencies report 
that they have incorporated telework into their guidance.
    Now, in our telework for employee welfare, we also know 
that only 8 percent of the employees are teleworking. But that 
does not mean they are doing that to keep mission-essential 
functions going. That means they are teleworking to keep their 
normal business going, and the normal course of business might 
not consist only of essential functions.
    Senator Voinovich. I was just thinking that with this 
pandemic in the offing, it would be something that would incent 
us to really get into this whole teleworking thing. In other 
words, right now I think agencies probably are in it, and some 
are not. If you have a director that is real excited, maybe 
they are doing it; others maybe not so much. But it seems to me 
that this could help to drive the real consideration about 
where teleworking is appropriate or not appropriate.
    Ms. Kichak. What we are doing now, as I said in my 
testimony, is that we are ramping up our interest in or our 
push for telework, and this is one of the reasons why we have 
now required every agency to submit their telework plan to OPM. 
So we are going to review their telework programs. We are going 
to set standards on how a telework program should be set up or 
what a telework policy should look like. We have convened 
meetings of telework advisers, so we are changing the emphasis. 
We have always cared about telework, but we are trying to get 
more of our best people involved, so we have more people ready 
to telework if they need to during a pandemic.
    Senator Voinovich. Any others want to comment on this whole 
issue of overall management?
    Ms. Duke. We are always looking at lessons learned and how 
do we better this, and just in the specific example of 
telework, one of the issues we are working on in going forward, 
with OPM taking the telework lead, is do the individual plans 
work in concert with each other. So we have the step one of 
does DHS have a telework plan, is it tested and is it clear? 
And the answer to that is yes, we do have a telework plan.
    We do have a concern, if you add up all the telework plans, 
does the critical infrastructure, the IT infrastructure of the 
United States, support it? And there is a bandwidth issue.
    So I think what Ms. Kichak is talking about is the next 
step in our planning is do all the plans together all work from 
both a technical standpoint and an operational standpoint. And 
that is where we are focused now with the Federal Chief 
Information Officers (CIOs).
    Ms. Steinhardt. If I might just add to the discussion of 
telework, just to remind you that in our report we found that 
there was only one agency that had actually done extensive 
testing of its IT system to make sure that it could telework. 
So I think there is an opportunity here for OPM to work with 
the agencies as they review their telework plans to look behind 
that, to look at the extent to which they are testing their 
systems, so that in any emergency event, certainly in a 
pandemic, they can use that as a way to keep their operations 
going and their people protected and employed.
    Senator Voinovich. Thanks, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Voinovich.
    Ms. Steinhardt, one of GAO's findings was that several of 
the agencies surveyed had not completed their pandemic plans. 
What information did these agencies provide regarding when they 
will have completed plans in place?
    Ms. Steinhardt. Well, in a couple of instances they had 
expectations that they were going to complete them--or that 
they were going to have additional information in their plans 
later this year. But, otherwise, there was no deadline for 
them. They had no firm deadlines on when their plans were going 
to be largely complete.
    We recognize that the process of planning is one that 
evolves in response to new information and circumstances. But, 
still, there did not seem to be a sense of urgency or deadline 
for completing the plans.
    Senator Akaka. Admiral, HHS's guidance to employees who may 
be sick is to stay home and away from the workplace. However, 
many Federal employees' jobs must be done on site. For example, 
GAO reviewed the preparedness of air traffic controllers, and 
you mentioned that a large number of absences could make it 
difficult to continue critical government operations.
    What recommendations and guidance would you have in those 
circumstances?
    Admiral Vanderwagen. Thank you, Senator. Well, we encounter 
that within Health and Human Services as well because Indian 
Health Service hospitals, for instance, must continue to 
operate and provide care to people in those indigenous 
communities around the country. The Clinical Center in Bethesda 
at the National Institutes of Health (NIH) needs to continue to 
function to provide care to patients, and so, acutely, we 
recognize this as a problem internally as well. But I think 
that the business managers have to look at what is absolutely 
required in order to maintain a level of care, and if they need 
to back away from elective surgeries, for instance, because 
they have absenteeism, etc. It is an analysis of what is it we 
could forego for a period of time in order to continue to 
function.
    Now, in institutional settings like prisons or in the 
context of FAA and air traffic controllers, you have extreme 
difficulty because unless you reduce air traffic and slow down 
the economy, there is no way for you to back off the service 
you provide. The same thing for the Bureau of Prisons (BOP). 
There will continue to be prisoners in prisons that need 
monitoring and oversight.
    Those are going to be extremely dicey situations in terms 
of how we can augment where they have staff losses and making 
some determinations about where priority critical 
infrastructure support in terms of personnel will be needed to 
make up for any absentee loss. Very challenging issues.
    I was going to comment to Senator Voinovich's notion, and 
he is a seasoned executive, so he has been through this kind of 
process. But the question of the disaster government versus the 
organic assets of the existing agencies and how you exploit 
those in disaster response is the challenge here, because a 
free-standing total disaster government is unlikely to be 
something we can do. But how do you bring the organic assets of 
the existing departments into a more orchestrated approach? 
This is the challenge that Ms. Steinhardt has described where 
we have not solved that problem completely.
    There is not a free-standing disaster government. You have 
got to use the OPMs, the HHSs, the Department of Labors, where 
they have organic assets, and it is a very difficult balancing 
act to bring that all into play.
    Senator Akaka. Ms. Steinhardt, would you like to comment on 
that question?
    Ms. Steinhardt. Well, I think it only underscores the need 
to bring all those assets together in a coordinated and focused 
way. It was very disappointing, I must say, in our discussions 
with FAA officials that planning for the air traffic 
controllers was not further along than it has been. We 
recognize the challenges. They are very daunting. But that is 
where you would hope that FAA and the Department of 
Transportation (DOT) would be able to draw on the expertise 
that resides elsewhere across the Federal Government and brings 
some focus, attention, and coordination to solving the problem 
rather than just passing it along.
    Senator Akaka. Ms. Kichak, GAO reported that three agencies 
surveyed--the Department of Commerce (DOC), the Social Security 
Administration (SSA), and the General Services Administration--
had not yet informed their employees about policy changes in an 
event of a pandemic. What is OPM doing to encourage agencies to 
provide this information to employees?
    Ms. Kichak. We had a recent forum where we had extensive 
representation from the agencies. We gave a lot of information 
during that forum. We have questions and answers from that 
forum available on our Web site. We have updated our pandemic 
guidance. The forum was very recent. It was a refresher course. 
But in the last 2 years, we have visited many agencies and have 
done question-and-answer sessions for employees.
    If you look at our pandemic guidance, it is very user 
friendly in that it says what managers should do, what 
employees should do, what agencies should do. So employees can 
go to the section that says what they should do in case of 
pandemic. It is available in our guidance. I know looking at a 
Web site is not the same as a face-to-face presentation.
    We also prepared a brochure, and some agencies, including 
OPM, gave that brochure to their employees so they could keep 
it on their desks and refer to it for information on what they 
should do in case of a pandemic. And it talked about being able 
to work from home, and, of course, it had the health guidance 
about washing your hands and covering your mouth. But it also 
talked about your rights as an employee.
    So we continue to work on that area. If any agency was to 
contact us, we would be over there talking to them about those 
rules. And, of course, we work with the Chief Human Capital 
Officers (CHCO), and we have done many sessions with them on 
preparing for a pandemic.
    Senator Akaka. I was disappointed to learn that, according 
to a GAO report, only one agency--the Department of Housing and 
Urban Development (HUD)--responded that they had shared their 
pandemic planning with the unions that represent their 
employees. I was, however, pleased that Mr. Bonner's written 
statement notes that OPM had taken the lead in reaching out to 
Federal employee unions.
    Would you please discuss why you thought it was important 
to work with unions and provide any thoughts you might have on 
how unions could help other agencies with employee outreach?
    Ms. Kichak. It is very important to talk to the unions 
because they represent the employees. The unions are a good 
source of knowledge for OPM on what employees are concerned 
about. Sometimes employees will talk to their union 
representatives before they will talk to their manager. So it 
is another way for us to hear about what the employees are 
thinking.
    Also, the unions have programs for their employees. The 
unions have some suggestions. We did work in our pandemic 
preparation before with certain groups of unions that 
represented certain populations; for example, representatives 
of some of the nursing associations who were very concerned 
about the pandemic and how they would function because they 
were front-line workers, definitely talked to us when we 
prepared our guidance back in 2006.
    So it is just good for us--because we care about the 
employees getting the best information available--to hear from 
all sources about what those employees need.
    Senator Akaka. Thank you very much. Senator Voinovich, any 
questions?
    Senator Voinovich. I would just like to make a comment. I 
really think that it is important, as we move along, again, 
that some decision be made about who is the communicator to the 
public. I know that during my experience either as a mayor or 
governor, when we have had something that it looks like it is 
going to be controversial, we try to decide who is going to be 
the communicator so you do not have five different people out 
there talking to the public. And I do not mean to be 
disrespectful of the Vice President, but his comments on NBC 
one morning really did not help matters. And I have found from 
my experience that people who work for agencies are so much 
better off than we are, the elected politicians.
    So I would suggest that some thought be given to who is 
going to be the spokesman about this issue. I think that the 
new Secretary of Homeland Security did not expect to have the 
responsibility, but it was thrusted upon her, and I thought she 
did a pretty good job. So that is another area of general 
overall management.
    The last one--and I am sure, Senator Akaka, you have 
thought of this, too--is that we are just talking about the 
Federal Government, but there are a lot of other private sector 
people who are also essential to our performing our 
responsibilities in the government in the national security 
area or just deliverance of basic services. And I suspect, and 
even though we are not really up to where we would like to be, 
I will bet a lot of them have not really started to give 
consideration to what they are going to do in the event that 
this happens. So there ought to be some thought also in terms 
of this overall who is responsible for who to reach out and 
say, ``Gee, there is one that we would need to talk to and get 
them involved in this whole process, also, assuming that we are 
going to have something that is pretty serious.''
    I have to apologize to the next two witnesses, Senator 
Akaka. I have another meeting I have to be at, but I am really 
pleased, Ms. Kichak, that you are working with our unions. I 
think the most important thing is that they know that you care 
about them. I know from my experience that when something like 
this happens, they are very fearful about their health and 
welfare, and their families. And the more information that you 
can get out, the better off you are going to be. Also, I hope 
that in the CHCO Council--and Mr. Berry said that he is going 
to really upgrade that. But I think the CHCO Council could play 
a tremendous role in getting information out to our people 
throughout the Federal Government to make sure that the best 
information is available to them.
    Also, following up, I think, on your suggestion, Ms. 
Steinhardt--that is, best practices--I know that there are some 
places that are just shining in terms of what they are doing, 
and those best practices also ought to be, I think, shared with 
other agencies. Thank you very much for your testimony today.
    Thank you, Mr. Chairman.
    Senator Akaka. Well, thank you very much, Senator 
Voinovich. I really appreciate your participation in these 
hearings, and we have worked so well together all these years 
on these issues.
    I have a question for the entire panel. It is important 
that we respect a Federal employee's right to privacy as we 
work to protect them from disease threats. This Subcommittee 
has heard reports of front-line supervisors asking employees 
directly about personal information related to their health as 
the H1N1 influenza virus emerged.
    What recommendations do you have to ensure that employees' 
privacy is respected while providing appropriate health 
protections?
    Ms. Kichak. That is indeed a very tough question, and that 
was one of the questions that was very much under consideration 
in the forum that we held. If you look at an employee and you 
think they are sick, as a manager, you wonder how you ask them 
to go home, because normally our supervisors are not making 
judgments on the health of the employee. And our advice has 
been that the managers need to be very aware of what the 
guidance is from the medical community on what the appearance 
of the illness is. In other words, if coughing and sneezing 
matter, then you need to know that. You cannot send somebody 
home because they look tired. Managers need to know the visible 
symptoms of the illness for which there is a concern.
    The second thing is that you ask the employee for their 
cooperation. You treat them with respect, and you say you are 
concerned for them, and ask if they will volunteer to go home, 
because, finally, the employees have certain rights, and they 
cannot be treated inappropriately. They have rights to appeal 
to certain boards if they are treated inappropriately.
    So it is delicate because the supervisors are not medical 
officials, and yet they are responsible for the well-being of 
all employees in their work unit.
    So, again, we ask supervisors to treat all employees with 
respect, to be mindful about what the symptoms may be, and to 
request the employee's assistance. Then the final thing you can 
do is--instead of creating an adverse situation where you say, 
``I am going to require you to use your sick leave,''--you 
could say, ``Could you go home, with no charge to leave for 
this afternoon, and just see how you are feeling, out of 
respect for the workplace?''
    So it just has to be handled in a respectful, case-by-case 
manner, and it is one of the many challenges that our 
supervisors face in the Federal Government. And there is 
guidance and advice on the Web site for employees to read when 
they are dealing with one of these situations. Nonetheless, it 
ultimately comes down to judgment.
    Senator Akaka. Admiral, I know many people are anxious to 
hear about the progress being made with the development of a 
vaccine to combat the novel H1N1 virus. What is the current 
status of vaccine production for this strain? And what will be 
the protocol for distribution?
    Admiral Vanderwagen. Well, that is indeed a question that 
most people are quite concerned with. As you may know, HHS 
announced about 2 weeks ago that we had entered into agreements 
to acquire a vaccine antigen from five manufacturers. These 
manufacturers, by the way, the investments that Congress made 
in supporting warm basing, the development of cell-based 
technologies and other things over the last 4 or 5 years are 
now coming into play very nicely.
    These five manufacturers include ones that would target a 
pediatric dose with no thimerosal in it, which is of concern to 
many people. We are also looking at adjuvants--that is, 
chemicals that would enhance the immune response of the body to 
the stimulus of the vaccine. These are used very aggressively 
and in Europe. We still want to study their safety and efficacy 
before we call them ``good.'' We have acquired enough antigen, 
and they have begun production of clinical testing lots for the 
clinical trials for safety and efficacy; and we believe that by 
September this acquisition would provide us enough to protect 
the critical infrastructure working, something approaching 20 
million people, and it would allow us to reach to other 
portions of the population, again, depending upon how much 
antigen is needed for each dose to be effective in creating an 
immune response. It could be as little as 4 or 5 micrograms, 
but it could be as high as 90 micrograms.
    So while we think we have made an acquisition that will 
cover our critical infrastructure and begin to approach 
children and other high-risk populations, we will have to see 
whether the clinical trials support us in that assumption about 
the antigen. But we should have a vaccine available in the 
fall.
    Then the question becomes: Should we immunize, and who 
should we immunize? And what we are looking at is throughout 
the summer this disease will continue to progress in the 
Southern Hemisphere, and based on what we see the virus doing 
in the Southern hemisphere--whether it mutates, becomes 
resistant to the antivirals, whether it becomes more severe--
are all questions that we are extremely interested in and 
planning for, including whether or not we will use the vaccine 
and who should be the targeted populations for use?
    We want to avoid the situation we got into in the mid-1970s 
when we made the decision to make a vaccine and use the 
vaccine, and we went ahead and started immunizing and 
discovered there were a whole lot of problems with that swine 
flu vaccine. We are taking a much more incremental approach, 
and we will make decisions later in the summer and early fall 
based on what we learn both from the clinical trials that we 
are doing with this new vaccine and from the epidemiology of 
the severity and the changing nature of that virus in the 
Southern Hemisphere.
    We feel like we are on track pretty well for a second wave. 
Hard to say when that might occur, so there are lots of 
unknowns here. But we are moving forward very rationally, 
trying to gather the right level of science, the right level of 
epidemiology to assure the American public that any choices 
that we recommend to them are going to be based on a real 
situation and not just our anxiety.
    Thanks for asking.
    Senator Akaka. Thank you.
    This question is for the Executive Branch agencies. In the 
coming months, more preparation will be needed. We must use the 
lessons learned from the past 2 months to address the future 
challenges. What are your highest priorities in the coming 
months to prepare for a more severe pandemic outbreak? Ms. 
Duke.
    Ms. Duke. Senator Akaka, some of our major priorities 
include both our role as the lead coordinator under Homeland 
Security Presidential Directives-5 (HSPD) and then our response 
as a Department. Secretary Napolitano is working with the 
Administration on the Federal lessons learned and how the 
Federal Government can respond. Within DHS, which is more my 
piece of it, a couple principal areas:
    One is to continue working on our mission-essential 
functions, what we need to provide, what functions we have to 
provide, making sure we have the employees identified going 
down to the next tactical level of our planning, as was 
mentioned by previous witnesses; making sure we test both the 
people, the response, the IT systems, our ability to actually 
deliver those mission-essential functions, whether it is a 
pandemic or another disaster, the uniqueness of pandemic being 
the potential absenteeism. So that is one of our principal 
areas.
    The second is preparing for some of the protocols we think 
would come with the second wave, and that includes making sure 
we have the right amount of pre-positioned antivirals and 
personal protection equipment, purchased or available for 
purchase for our employees.
    Those are the two principal areas we are working on.
    Senator Akaka. Thank you. Admiral Vanderwagen.
    Admiral Vanderwagen. Sir, I would say we have four pillars 
in place.
    One is surveillance, which I mentioned in the last answer. 
We need to know more about whether and how this virus will be 
affecting the population.
    Second, mitigation--that is, what are the mitigation 
lessons that we learned from this event, and we are studying 
New York and Texas very closely, for instance, in what the 
impact of mitigation was there. And that includes medical surge 
as well, because if we had a very severe pandemic, the pressure 
on hospitals, which is already overwhelming in many locations, 
will be a challenge.
    The third pillar is vaccination. I have already discussed 
that a little bit.
    And the last pillar is communication, and I think Senator 
Voinovich spoke to that as well. That is, how do we communicate 
not only across the Federal family but down with our State and 
local colleagues? And how do we communicate to the general 
public?
    So surveillance, mitigation, vaccination, and communication 
are our highest priorities at HHS.
    Senator Akaka. Thank you.
    Ms. Kichak. We are working with the Secretary of HHS on 
identifying some of the things we have learned from what we 
have just gone through, and some of the places where we still 
need to provide guidance. We are taking questions from agencies 
and continuing to answer those as far as human resource 
flexibilities are concerned. And we, as an agency, are 
continuing to try to maintain readiness for events.
    When I leave here today, I will be going to a COOP exercise 
in which we are going to review our mission-critical functions. 
We have done that before, but we have new leadership, and we 
are going to be integrating them into our plan. So we are going 
to test our readiness for these kinds of events.
    Senator Akaka. Thank you. Well, I will let GAO have the 
final word. [Laughter.]
    What do you think agencies' top priorities should be doing 
in the coming months to prepare for a pandemic?
    Ms. Steinhardt. Excellent question. Thank you for posing 
it. I would say, in general, what I would propose is to absorb 
the lessons that have been learned from this current pandemic 
that we are in. It is mild enough so that we actually have an 
opportunity--before it could possibly become much more severe, 
to learn from the mistakes we have made as well as the 
successes we have had. And that is one of the vital dimensions 
of tests and exercises. Here we have a real-life event that 
caused us to go to the playbook, see where our gaps were, and 
learning from that, as well as, I would say, from some of the 
other gaps that we have identified in our work, so start to 
fill all those gaps in our planning, revising our plans 
accordingly, would be, I think, the top priority for the 
Administration. And bringing in, also, all of the new people, 
the new leadership that were not involved in the earlier 
planning and exercising, and bringing their perspectives and 
bringing them up to speed on it. A very high priority.
    Senator Akaka. Yes. Well, thank you very much. I want to 
thank this first panel very much for your testimony and your 
responses. It will be helpful in pulling all of this together, 
and I appreciate your time. So thank you very much.
    I would like to call up the second panel. On our second 
panel this morning, we welcome T.J. Bonner, President of the 
National Border Patrol Council, American Federation of 
Government Employees; and also Maureen Gilman, Director of 
Legislation, of the National Treasury Employees Union.
    It is the custom, as you know, to swear in all witnesses, 
so will you please stand and raise your right hand? Do you 
solemnly swear that the testimony you are about to give this 
Subcommittee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Mr. Bonner. I do.
    Ms. Gilman. I do.
    Senator Akaka. As a reminder to you, the oral statements 
are limited to 5 minutes, but your full written statements will 
be included in the record.
    Mr. Bonner, please proceed with your testimony.

TESTIMONY OF T.J. BONNER,\1\ PRESIDENT, NATIONAL BORDER PATROL 
 COUNCIL, AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES, AFL-CIO

    Mr. Bonner. Thank you, Chairman Akaka.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bonner appears in the Appendix on 
page 64.
---------------------------------------------------------------------------
    I have a sense of being in the Twilight Zone listening to 
the previous panel speaking about the current pandemic as if it 
is a thing of the past.
    The World Health Organization reports that as of yesterday 
there were 35,928 laboratory-confirmed cases of H1N1 and 163 
fatalities. Of that number, nearly half--17,855--were in the 
United States, with 45 fatalities. In the past 3 days alone, 
there were 5,834 new confirmed cases, with 18 fatalities, all 
of those fatalities in the United States, and 4,638 of those in 
the United States.
    So this is a real-time event that is ongoing, and it is 
clearly not as severe as it could be in the fall, but it is 
something that we need to be paying attention to.
    Within the Federal Government, many of our agencies come 
into contact with millions of people on a daily basis. Within 
the Customs and Border Protection (CBP), there are over a 
million passengers. They estimate that on an average day, 1.1 
million passengers are encountered by CBP employees. Then when 
you factor in the TSA employees, there is an equal if not 
greater number of people who are encountered. And yet we have 
all of these conflicting policies about providing personal 
protective equipment to the employees. And I recognize that the 
Admiral says we are not sure how effective a N95 respirator is. 
But one thing is certain: It is not going to hurt an employee 
to use it, and it appears that was the element that was most 
responsible for containing the spread of the SARS outbreak in 
Asia a few years ago. And yet we have Federal agencies with 
conflicting guidance given as to when employees can, and many 
employees have been precluded from wearing that.
    I would also like to note there is no reliable data for 
Federal employees and for Federal worksites. What we have been 
able to discover on our own is that, within four of the 
immigration detention facilities, we have current outbreaks, 
the most severe being at the Chrome Detention Facility down in 
Miami, Florida, where we have three confirmed cases with 
detainees, 16 detainees who are exhibiting symptoms, one 
contractor who has a confirmed case of the virus, six 
symptomatic contractors, one contractor pending test results, 
12 symptomatic medical staff who are all off on sick leave, 
which is appropriate. At York, Pennsylvania, one confirmed 
detainee; Denver, Colorado, two confirmed detainees; in 
Florence, Arizona, seven suspected cases of detainees.
    So it troubles me when I hear Ms. Duke say that we only 
have 53 worksites within CBP that are pre-poisitioned with 
personal protective equipment. In the Chrome Detention 
Facility, for example, only a third of those people have been 
fit tested, which is a procedure that certain parts of DHS are 
still requiring employees to undergo the medical evaluation and 
the fit testing before they are allowing them to wear the 
respirator, even though the OSHA regulations say that, when it 
is a voluntary usage, you do not have to be fit tested. 
Millions of Americans go out every year and buy N95 
respirators, which you can buy at a corner drug store--hardware 
store, rather, and they do home repair projects or whatever, 
with no adverse effects. There is no reason to be requiring 
these people--yes, it would be nice, but since we do not have 
the wherewithal to make that happen, they need to come out with 
policies that clearly allow employees to wear personal 
protective equipment.
    Even the guidance that DHS has now is ambiguous. It says 
``when you encounter people who you know or suspect to be 
infected.'' Well, at that point it could well be too late. When 
someone sneezes in your face when you are inspecting them as 
they come into the country or as they are going through an 
airport, it is simply too late because you have been exposed.
    In the United States of America, we seem to have this 
phobia about people with masks. It is a protective measure that 
people should be glad to see other people out there. I would 
suspect that when people come into the United States from other 
countries, they are wondering about the intelligence of some of 
the folks here in this country, when they know that we have the 
biggest outbreak going on in the world right now, and they look 
around and they do not see any of the government officials 
wearing masks.
    I see that my time has expired, so hopefully I can get to 
more of these issues in my responses to your questions. Thank 
you very much.
    Senator Akaka. Thank you very much, Mr. Bonner. Ms. Gilman.

TESTIMONY OF MAUREEN GILMAN,\1\ LEGISLATIVE DIRECTOR, NATIONAL 
                    TREASURY EMPLOYEES UNION

    Ms. Gilman. Thank you, Chairman Akaka, and thank you for 
holding this important hearing and inviting the National 
Treasury Employees Union (NTEU) to testify.
---------------------------------------------------------------------------
    \1\ The prepared statement of Colleen M. Kelley, National President 
with attachments submitted by Ms. Gilman appears in the Appendix on 
page 82.
---------------------------------------------------------------------------
    The NTEU-represented employees most affected by the H1N1 
influenza outbreak work for the Department of Homeland 
Security. Customs and Border Protection officers and 
agriculture specialists work at land, sea, and air ports of 
entry. Transportation Security officers work at airports. Both 
groups of employees can interact with thousands of travelers in 
a single shift. Their work--including reviewing immigration 
documents, wanding passengers, questioning them, and sometimes 
patting them down or detaining them--requires them to be within 
6 feet of the travelers they process. The general CDC 
guidelines that recommend avoiding crowds and maintaining a 
distance of 6 feet from those exhibiting illness is not 
possible for these workers.
    Many of these employees work on the U.S.-Mexico land 
border. Many also process international flights from Mexico. 
Once the origin of the swine flu became clear in April, these 
employees in particular were concerned about protecting their 
health and that of their families. Those concerns were 
certainly reasonable. The U.S. Government had advised against 
unnecessary travel to Mexico, and all of the first cases of 
H1N1 flu in the U.S. involved people who had recently traveled 
from Mexico. And unless they came into the U.S. illegally, they 
must have passed through a port of entry staffed by these 
employees.
    Those who work on the land border saw their Mexican 
counterparts, often just steps away, wearing masks as they 
performed their duties. Some of these employees wanted the 
option of wearing a protective mask or respirator, but CBP and 
TSA prohibited the wearing of masks unless an employee is in 
close contact with an obviously ill traveler. Under that 
circumstance, a mask was initially required to be worn and is 
now discretionary.
    As soon as questions began coming to NTEU from our members 
around the country as to whether they could wear respirators or 
masks, NTEU began trying to find out what the current policy 
was and urged that these employees be allowed to wear the masks 
if they felt it was important for their health. We contacted 
CBP, TSA, and DHS but got no answers.
    During this time a DHS spokesperson was quoted in the press 
as saying, ``The Department of Homeland Security has not issued 
an order saying our employees cannot wear masks.'' And the CBP 
spokesperson was quoted saying, ``CBP officers and Border 
Patrol agents are provided personal protection gear which they 
may utilize at their discretion.'' But CBP and TSA were clearly 
enforcing a prohibition.
    Some statements from DHS that appeared in the press 
indicated that managers who were preventing the wearing of 
masks were misinformed about the actual policy. The idea that a 
few managers were misinformed is clearly not accurate. In a 
letter to NTEU dated May 13, the Acting CBP Commissioner 
stated, ``The decision was made to authorize the use of 
respirators only in the high-risk situations.'' The higher-risk 
situations referred to are those in which there is close 
contact with an infected person.
    In addition, NTEU heard from many employees from around the 
country, and attached to my written testimony are affidavits 
from some of them relating instances of supervisors' demanding 
that they remove respirator masks. Some of them are 
disturbingly threatening, and some include comments indicating 
the reason for the prohibition was fear of alarming the public. 
The affidavits also confirmed that the policy has not been 
disseminated in writing and that employees' requests for 
written guidance on the issue have been denied. I trust this 
Subcommittee will ensure that the employees providing these 
affidavits will be free from any negative impact.
    As NTEU tried to address the concerns of our members at CBP 
and TSA, we learned that other divisions within DHS, such as 
the Border Patrol, and other agencies, such as the Internal 
Revenue Service (IRS), were allowing employees to wear masks at 
their discretion. After researching possible scientific or 
medical reasons for prohibiting the optional wearing of masks 
at CBP and TSA, NTEU is convinced that the reasons are not 
based on science or medicine, but on public relations.
    In our view, avoiding unnecessarily alarming the public is 
not without merit. However, it is one factor that must be 
weighed against the potential health risks to employees, their 
families, and others. It is difficult to weigh the competing 
factors when there is a refusal to even acknowledge them.
    On May 14, the House counterpart to the Subcommittee held a 
hearing on this topic, and on June 4, the House included a 
bipartisan amendment authored by Chairman Stephen Lynch in a 
TSA authorization bill that ensures that TSA employees may wear 
masks at their discretion. NTEU strongly supported that 
amendment, but the TSA bill is not yet law, and it does not 
cover other affected employees at CBP.
    DHS and its components need to have a rational policy on 
this issue now before this fall when many predict a more 
virulent form of the H1N1 virus will return. I hope this 
hearing, together with actions taken by the House, will help 
achieve that very modest goal.
    Thank you again for holding this important hearing. I would 
be happy to answer any questions.
    Senator Akaka. Thank you very much, Ms. Gilman.
    This question is for the panel. As you heard from the first 
panel, GAO recommends that the White House Homeland Security 
Council direct DHS to report on the readiness of agencies to 
continue government operations and protect the Federal 
workforce. What are your views on the recommendations?
    Ms. Gilman. Well, Mr. Chairman, I certainly think they 
should be required to report. As I understand it now, there is 
very little reporting that is required on the status of the 
plans in the different agencies, and I would think that would 
certainly be an important step, and I would think that Congress 
might want them to report to them as well.
    Senator Akaka. Mr. Bonner.
    Mr. Bonner. Reports are good. Actions are better. We would 
like to see the agencies not only be required to report on what 
they are doing but required to do the right thing for their 
employees. Sometimes we study things to death. We really do not 
have the luxury of time with this pandemic. It is active right 
now, and it will undoubtedly get worse, especially when the 
fall hits, and we need to take prudent actions. We are not 
asking for miracles here. We are just asking to allow employees 
to use common-sense measures to protect themselves against very 
real dangers.
    Senator Akaka. Ms. Gilman, you testified that the May 29, 
2009, guidance issued by DHS is not comprehensive. In 
particular, you stated that DHS needs to clarify the policy on 
voluntary use of personal protective equipment.
    What would you like to see DHS issue in terms of guidance?
    Ms. Gilman. Thank you very much for asking that question, 
Mr. Chairman. For 2 months, we have been trying to get a clear 
answer to the question of whether employees who are working in 
passenger processing, working on the land border in Mexico, 
clearing flights from Mexico, or other activities where they 
are processing thousands of people but are not processing 
someone that appears to have the flu, what is the policy with 
regard to those employees and their use of personal protective 
equipment? Even the guidance that has been issued in the last 
few days does not answer that question, and I do not believe 
that it was answered by the panel earlier today.
    Senator Akaka. Mr. Bonner, both you and Ms. Gilman raised 
concerns with agencies' communication with employees during the 
H1N1 outbreak. What recommendations would you make to ensure 
that Federal employees are better informed about pandemic 
influenza policies?
    Mr. Bonner. It takes leadership at the top to issue 
consistent guidance, but more than that, that guidance has to 
be followed. There has to be some oversight so that you do not 
have all of these local policies that are in conflict with the 
guidance that is given at the top. And in this case, the 
guidance at the top was so vague that it left it open to 
interpretation.
    As Ms. Gilman said, we need some very clear guidance, and 
in our view, that guidance should say that employees are free 
to use whatever personal protective equipment that they deem 
necessary at any time. There should be no restrictions on that.
    Senator Akaka. Ms. Gilman, we know that DHS has allowed 
employees to voluntarily use personal protective equipment in 
high-risk settings. What have you heard from your members about 
whether they are receiving adequate guidance to know if they 
are working in high-risk settings?
    Ms. Gilman. Well, Mr. Chairman, as I understand it, a 
setting becomes high risk when you realize that the person 
standing right in front of you is exhibiting symptoms of the 
flu. One second before you realize that, you are not in a high-
risk situation. But that is the situation that most employees 
are in for their full shifts, and that is the area that there 
has been no clear guidance on what the situation is.
    My view and that of our bureaus where we represent 
employees--CBP and TSA--is that they have been told that they 
are prohibited from wearing masks in that situation. And, 
initially, they were required to wear masks as soon as they 
made a judgment that the person in front of them was showing 
symptoms. It was then that it went from prohibition to mandate 
as soon as they made that determination. The mandate has now 
been changed to the voluntary use, but when you are in or out 
of a high-risk situation seems to be a split-second thing, and 
we think it would make much more sense if the guidance were 
clear for the person who is interacting with the public. Where 
people may have the flu, they may not have any symptoms, and 
you may not know that they have the flu, it would seem to me 
that is the area that needs some guidance, and we have been 
unable to figure out what the guidance is in that area, except 
to the extent that our employees have been told they were 
prohibited from wearing personal protective equipment until 
they saw that a traveler was likely infected.
    Senator Akaka. On the first panel, we discussed the various 
roles of Federal agencies in developing pandemic flu plans and 
issuing agency-specific and governmentwide guidance. What role 
do you believe unions could play in assisting Federal agencies 
to develop pandemic influenza plans and guidance? Mr. Bonner.
    Mr. Bonner. I think that the unions play a key role in that 
process because they are the ones who are elected to represent 
the interests of the Federal workforce. And we are the ones who 
get the unvarnished truth from the folks who are actually out 
there doing the job. And I know that managers like to go around 
to town hall meetings, but employees are very hesitant to tell 
them what they really think because their career advancement 
hinges on how they are perceived by those managers, so they 
tend to tell the managers what they think the managers want to 
hear.
    Unions, on the other hand, if people are unhappy about 
something, we hear about it loud and clear. And so I think that 
we bring that perspective to the table and are able to 
articulate those concerns of the rank-and-file and make sure 
that those concerns are factored into the decisions that are 
made.
    Senator Akaka. Thank you. Ms. Gilman.
    Ms. Gilman. I would say they also have a very good 
understanding of what the front-line workers do, and I think 
that can contribute a lot to a discussion of how policies can 
actually be implemented.
    I think in some of the planning that OPM did previously for 
pandemic flu situations, the unions were involved, were invited 
to meetings and briefings and asked to provide our comments. I 
also think that the unions can be very helpful in 
communication.
    We have received very little communication during this 
swine flu outbreak. I would echo Mr. Bonner's comments on OPM. 
I think they tried their best to include the unions to at least 
pass on information. We were aware that there were daily phone 
calls going on between all of the agencies in the government 
that were involved in the policy and the response to the swine 
flu. Yet none of that information was passed on to us until we 
went to OPM and OPM did agree to then work with us and try to 
pass on what information they could. But until we made that 
request, we were not getting any information.
    Senator Akaka. This is my last question for the witnesses. 
There is an expectation that the H1N1 flu virus will get worse 
during the 2009-2010 flu season. What are your top three 
recommendations to help prepare the Federal workforce for a 
future outbreak?
    Mr. Bonner. That is a tough question. Our first 
recommendation would be that the employees receive enough 
information to make informed choices, information about, the 
science, where the highest risks are coming from; and, second, 
empowering them to act upon that information in order to 
protect themselves; and, third, taking care of those employees 
who succumb either themselves or their families succumb to the 
illness.
    The last thing that we want to do is to have the Federal 
workforce become a carrier for the disease. If we force our 
employees to remain on the job when they are exhibiting 
symptoms, then they are going to infect their co-workers, the 
traveling public, and their families, thereby increasing the 
spread of the disease.
    Senator Akaka. Thank you. Ms. Gilman.
    Ms. Gilman. I would cite similar things to Mr. Bonner. I 
think that we would like to see the policies that are made take 
into consideration the health of the employees, that the 
policies are made only on good science and good medicine, and 
that those policies are clearly communicated to the employees 
with the reasons that they are being made. That has clearly not 
been done.
    My No. 1 thing would be that in the fall, if this is more 
serious, that our employees do not get a message that says go 
to the CDC Web site to see what policy is for you when you go 
to work tomorrow, and where the CDC Web site does not have any 
specific information on employees trying to do passenger 
processing jobs that we have been discussing here today.
    Senator Akaka. I want to thank you and all our witnesses 
today for your thoughtful testimony and answers to our 
questions. There clearly is a lot more planning that needs to 
be done throughout the Federal Government. Mechanisms to 
increase accountability, such as additional reporting 
requirements and monitoring of agencies' progress, would help 
move us in the right direction.
    I hope that agencies are learning from the ongoing H1N1 
outbreak and taking corrective action for future planning. One 
lesson we have learned is that there must be clear and 
consistent guidance to Federal employees on agency policies. I 
would like to see closer collaboration between the agencies and 
employees on these issues in the future. And I also look 
forward to continuing to work with all the witnesses.
    Thank you again for being here. This hearing is adjourned.
    [Whereupon, at 11:56 a.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T1787.001

[GRAPHIC] [TIFF OMITTED] T1787.002

[GRAPHIC] [TIFF OMITTED] T1787.003

[GRAPHIC] [TIFF OMITTED] T1787.004

[GRAPHIC] [TIFF OMITTED] T1787.005

[GRAPHIC] [TIFF OMITTED] T1787.006

[GRAPHIC] [TIFF OMITTED] T1787.007

[GRAPHIC] [TIFF OMITTED] T1787.008

[GRAPHIC] [TIFF OMITTED] T1787.009

[GRAPHIC] [TIFF OMITTED] T1787.010

[GRAPHIC] [TIFF OMITTED] T1787.011

[GRAPHIC] [TIFF OMITTED] T1787.012

[GRAPHIC] [TIFF OMITTED] T1787.013

[GRAPHIC] [TIFF OMITTED] T1787.014

[GRAPHIC] [TIFF OMITTED] T1787.015

[GRAPHIC] [TIFF OMITTED] T1787.016

[GRAPHIC] [TIFF OMITTED] T1787.017

[GRAPHIC] [TIFF OMITTED] T1787.018

[GRAPHIC] [TIFF OMITTED] T1787.019

[GRAPHIC] [TIFF OMITTED] T1787.020

[GRAPHIC] [TIFF OMITTED] T1787.021

[GRAPHIC] [TIFF OMITTED] T1787.022

[GRAPHIC] [TIFF OMITTED] T1787.023

[GRAPHIC] [TIFF OMITTED] T1787.024

[GRAPHIC] [TIFF OMITTED] T1787.025

[GRAPHIC] [TIFF OMITTED] T1787.026

[GRAPHIC] [TIFF OMITTED] T1787.027

[GRAPHIC] [TIFF OMITTED] T1787.028

[GRAPHIC] [TIFF OMITTED] T1787.029

[GRAPHIC] [TIFF OMITTED] T1787.030

[GRAPHIC] [TIFF OMITTED] T1787.031

[GRAPHIC] [TIFF OMITTED] T1787.032

[GRAPHIC] [TIFF OMITTED] T1787.033

[GRAPHIC] [TIFF OMITTED] T1787.034

[GRAPHIC] [TIFF OMITTED] T1787.035

[GRAPHIC] [TIFF OMITTED] T1787.036

[GRAPHIC] [TIFF OMITTED] T1787.037

[GRAPHIC] [TIFF OMITTED] T1787.038

[GRAPHIC] [TIFF OMITTED] T1787.039

[GRAPHIC] [TIFF OMITTED] T1787.040

[GRAPHIC] [TIFF OMITTED] T1787.041

[GRAPHIC] [TIFF OMITTED] T1787.042

[GRAPHIC] [TIFF OMITTED] T1787.043

[GRAPHIC] [TIFF OMITTED] T1787.044

[GRAPHIC] [TIFF OMITTED] T1787.045

[GRAPHIC] [TIFF OMITTED] T1787.046

[GRAPHIC] [TIFF OMITTED] T1787.047

[GRAPHIC] [TIFF OMITTED] T1787.048

[GRAPHIC] [TIFF OMITTED] T1787.049

[GRAPHIC] [TIFF OMITTED] T1787.050

[GRAPHIC] [TIFF OMITTED] T1787.051

[GRAPHIC] [TIFF OMITTED] T1787.052

[GRAPHIC] [TIFF OMITTED] T1787.053

[GRAPHIC] [TIFF OMITTED] T1787.054

[GRAPHIC] [TIFF OMITTED] T1787.055

[GRAPHIC] [TIFF OMITTED] T1787.056

[GRAPHIC] [TIFF OMITTED] T1787.057

[GRAPHIC] [TIFF OMITTED] T1787.058

[GRAPHIC] [TIFF OMITTED] T1787.059

[GRAPHIC] [TIFF OMITTED] T1787.060

[GRAPHIC] [TIFF OMITTED] T1787.061

[GRAPHIC] [TIFF OMITTED] T1787.062

[GRAPHIC] [TIFF OMITTED] T1787.063

[GRAPHIC] [TIFF OMITTED] T1787.064

[GRAPHIC] [TIFF OMITTED] T1787.065

[GRAPHIC] [TIFF OMITTED] T1787.066

[GRAPHIC] [TIFF OMITTED] T1787.067

[GRAPHIC] [TIFF OMITTED] T1787.068

[GRAPHIC] [TIFF OMITTED] T1787.069

[GRAPHIC] [TIFF OMITTED] T1787.070

[GRAPHIC] [TIFF OMITTED] T1787.071

[GRAPHIC] [TIFF OMITTED] T1787.072

[GRAPHIC] [TIFF OMITTED] T1787.073

[GRAPHIC] [TIFF OMITTED] T1787.074

[GRAPHIC] [TIFF OMITTED] T1787.075

[GRAPHIC] [TIFF OMITTED] T1787.076

[GRAPHIC] [TIFF OMITTED] T1787.077

[GRAPHIC] [TIFF OMITTED] T1787.078

[GRAPHIC] [TIFF OMITTED] T1787.079

[GRAPHIC] [TIFF OMITTED] T1787.080

                                 <all>

</pre></body></html>
